   AUDIT REPORT

U.S. Fish and Wildlife Service
 Federal Assistance Grants
Administered by the State of
 Connecticut, Department of
 Environmental Protection,
Bureau of Natural Resources,
 from July 1, 2000, through
        June 30, 2002




   Report No. R-GR-FWS-0019-2003

                          May 2004
                U
                Unniitteedd SSttaatteess D          meenntt ooff tthhee IInntteerriioorr
                                         Deeppaarrttm
                                                   .
                           OFFICE OF INSPECTOR GENERAL
                                         External Audits
                               12030 Sunrise Valley Drive, Suite 230
                                       Reston, VA 20191

                                                                                           May 6, 2004

Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Joe Ansnick
           Director of External Audits

Subject:   Final Audit Report on U.S. Fish and Wildlife Service Federal Assistance Grants
           Administered by the State of Connecticut, Department of Environmental Protection,
           Bureau of Natural Resources, from July 1, 2000, through June 30, 2002
           (No. R-GR-FWS-0019-2003)

       This report presents the results of our audit of costs incurred by the State of Connecticut,
Department of Environmental Protection, Bureau of Natural Resources (Bureau), under Federal
Assistance grants from the U.S. Fish and Wildlife Service (FWS) for the period July 1, 2000,
through June 30, 2002 (see Appendix 1).

       We found that the Bureau did not all report program income, and improvements are
needed in the Division’s annual license certifications and asset management.

       The Bureau and FWS Region 5 responded to a draft of this report on March 24, 2004.
We modified the findings and recommendations as necessary to incorporate additional
information provided and to clarify the report. We have added the responses after our
recommendations and summarized the status of the recommendations in Appendix 3.

        In accordance with the Departmental Manual (360 DM 5.3), please provide us with your
written response by August 6, 2004, to the unresolved and unimplemented recommendations
included in this report. Your response should include information on actions taken or planned,
including target dates and titles of officials responsible for implementation. If you have any
questions regarding this report, please contact me or Mr. Owen Nicholson, Audit Team Leader,
at 703-487-5345.

cc:     Regional Director, Region 5, U.S. Fish and Wildlife Service
                 IIN
                   NTTR
                      ROOD
                         DUUC
                            CTTIIO
                                 ONN

             The Pittman-Robertson Wildlife Restoration Act, as amended (16
Background   U.S.C. 669), and the Dingell-Johnson Sport Fish Restoration Act,
and Scope    as amended (16 U.S.C. 777) (the Acts), authorize FWS to provide
             Federal Assistance grants to states to enhance their sport fish and
             wildlife programs. The Acts provide for FWS to reimburse the
             states up to 75 percent of the eligible costs incurred under the
             grants. The Acts specify that state hunting and fishing license
             revenues cannot be used for any purpose other than the
             administration of the state’s fish and game agencies.

             We performed an audit of Federal Assistance grants to the State of
             Connecticut as requested by FWS. The objective of our audit was
             to evaluate: (1) the adequacy of the Bureau’s accounting system
             and related internal controls; (2) the accuracy and eligibility of the
             direct and indirect costs claimed under the Federal Assistance grant
             agreements with FWS; (3) the adequacy and reliability of the
             Bureau’s hunting and fishing license fee collection and
             disbursement process; (4) the adequacy of the Bureau’s asset
             management system and related internal controls with regard to
             purchasing, control and disposal; and (5) the adequacy of the
             State’s compliance with the Acts’ assent legislation requirements.
             The audit also included an analysis of other issues considered
             sensitive and/or significant by FWS. The audit work at the Bureau
             included claims that totaled approximately $20 million on FWS
             grants that were open during the State’s fiscal years ended June 30,
             2001, and 2002 (see Appendix 1).

             Our audit was performed in accordance with government auditing
             standards issued by the Comptroller General of the United States.
             Accordingly, we included such tests of records and other auditing
             procedures that we considered necessary under the circumstances.
             We relied on the work of the State of Connecticut Single Audit
             Report auditors to the extent possible in order to avoid a
             duplication of audit effort. Our tests included an examination of
             evidence supporting selected expenditures charged by the Bureau
             to the grants; interviews with employees to ensure that personnel
             costs charged to the grants were supportable; and a review of the
             Bureau's use of fishing and hunting license revenues to determine
             whether the revenues had been used for program purposes. We did
             not evaluate the economy, efficiency, and effectiveness of the
             Bureau’s operations.




                               2
              Our audit was performed at the Connecticut Bureau of Natural
              Resources headquarters in Hartford, Connecticut. We also visited
              several headquarters offices, wildlife management areas and boat
              ramps (see Appendix 2).

              On October 30, 1996, we issued audit report No. 97-E-100, “U.S.
Prior Audit   Fish and Wildlife Service Wildlife and Sport Fish Restoration
Coverage      Grants to the State of Connecticut, Fiscal Years 1994 and 1995.”

              We reviewed this report and followed up on all significant findings
              to determine whether they had been resolved prior to our review.
              We determined that all findings had been resolved.




                                3
              R
              REESSU
                   ULLTTSS O
                           OFF A
                               AUUD
                                  DIITT

             Except for the issues identified below, the Bureau’s accounting
Summary      system accurately accumulated grant expenditures; the direct and
             indirect costs were accurately reported; license fee receipts and
             disbursements were used for fish and wildlife purposes; and the
             hunting and fishing license certifications accurately reported license
             holders. The State also had adequate legislation that assented to the
             provisions of the Acts and prohibited the use of license fees for
             anything other than the administration of the Bureau.

             We found that the Bureau:

                     Did not report program income of $240,277.

                     Needed to make improvements in the annual license
                      certifications and in its asset management.

             The Bureau earned $240,277 in revenues generated on wildlife
A. Program   management areas receiving Federal Assistance funds for operation
   Income    and maintenance. Sources of the revenue, earned in State fiscal
             years (SFY) 2001 and 2002, were timber sales that were not
             identified as program income in Grants W-61-D-5, W-61-D-6, and
             W-61-D-7 or reported on the respective Financial Status Reports,
             SF-269s.


                            Wildlife
                     Management Area         SFY 2001      SFY 2002       Total
                Franklin                       $25,760                   $25,760
                Babcock Pond                    32,875                    32,875
                Little River                     2,200                     2,200
                Sessions Woods                  17,702                    17,702
                Roraback                        85,235                    85,235
                Kollar                                         $6,400      6,400
                Bishop Swamp                                   51,922     51,922
                Messerschmidt Pond                             18,183     18,183
                      Totals                   $163,772       $76,505   $240,277



             According to 43 CFR § 12.65, program income is gross income
             received by a grantee directly generated by a grant-supported
             activity. Program income should be deducted from total grant costs
             to determine net costs on which the grantor’s share will be based, or




                               4
                    added to the project funds to further eligible program objectives. In
                    addition, the grant agreement should identify the estimated amounts,
                    sources, and method of accounting for the program income.

                    The Bureau followed FWS Region 5 guidance which viewed timber
                    sales as transfers of real property and, as such, required that proceeds
                    from timber sales be used only for the administration of the fish and
                    game agency. The Bureau was unaware of requirements regarding
                    program income earned on wildlife management areas receiving
                    Federal Assistance funds for operation and maintenance.

  Recommendations   We recommend that FWS:

                       1. Resolve the issue of the unreported program income of
                    $240,277.

                        2. Provide guidance to Bureau staff to ensure proper reporting
                    of program income in future grants.

  Bureau            The Bureau did not concur with the finding, stating that it strictly
  Response          adhered to guidance from the FWS Regional Office regarding timber
                    sales on Federal Assistance lands which indicated that unless there
                    was an open land acquisition grant, timber sales were not to be
                    treated as program income. Thus, program income from timber sales
                    on Wildlife Management Areas receiving Federal Assistance funds
                    for operation and maintenance was not reported. The Bureau
                    welcomed FWS guidance to ensure proper reporting in the future.

  FWS               FWS did not comment on the finding and recommendations.
  Response

  OIG               FWS should address the finding and recommendations in the
  Comments          corrective action plan. In addition, the FWS Regional Office should
                    clarify that program income can be derived from any wildlife
                    management area or other land no matter what funding was used for
                    its acquisition. The factor used to determine if it should be reported
                    is whether the Bureau received an operation and maintenance grant
                    for the property.

                    The Bureau completed and submitted annual License Certifications
B. Annual           for license years 2001 and 2002 to the FWS Division of Federal
   License          Assistance. However, the Bureau did not account for and eliminate
   Certifications   potential duplicate non-resident license holders.




                                      5
                                    According to 50 CFR § 80.10(c)(5) the state fish and wildlife
                                    director, in certifying license information to the Director of FWS, is
                                    responsible for eliminating duplication or multiple counting of single
                                    individuals in the figures certified. However, the individual who
                                    completed the license certifications was not aware of the requirement
                                    to eliminate duplicate license holders from annual license
                                    certifications.

                                    Since duplicate licenses holders were not eliminated, the number of
                                    licenses certified in license years 2000 and 2001 may be inaccurate.

    Recommendation                  We recommend that FWS require the Bureau to eliminate duplicate
                                    license holders from its annual license certifications.

    Bureau                          The Bureau concurred with the finding and stated that the
    Response                        certification included persons who purchased more than one 3-day
                                    fishing license per year. However, since the State received the
                                    minimum apportionment, there was no impact on the apportionment.
                                    To comply with the requirements, the duplicate licenses will be
                                    eliminated from future annual certifications.

    FWS                             FWS did not comment on the finding and recommendation.
    Response

    OIG                             We consider the Bureau’s action to be appropriate. FWS should
    Comments                        address the finding and recommendation in the corrective action
                                    plan.

                                    The Department of Environmental Protection’s Bureau of Financial
C. Asset                            and Support Services (Support Services) was responsible for
   Management –                     maintaining the inventory database for all personal property1 for the
   Personal                         entire Department, including the Bureau of Natural Resources. We
   Property                         found that the inventory database did not always identify the funding
                                    source for property and contained inaccurate data. In addition, some
                                    items were not tagged.

                                    A State Identification (SID) number2 was used to distinguish the
                                    source of funds used to acquire personal property. However, 1,287
                                    items (valued at $1,122,046) of the 2,948 items (valued at
                                    $5,429,164) of the personal property for the Bureau’s Inland


1
  Personal property is defined as capitalized equipment (valued at or cost of $1,000 or more), and controllable
equipment (items that are considered susceptible to being appropriated for personal use or which can easily be
converted to cash).
2
  The SID number for Federal Assistance funds is by grant.




                                                          6
                                  Fisheries, Marine Fisheries and Wildlife Divisions, did not have an
                                  SID number in the inventory database.

                                  We also found that the inventory of 2,948 items (valued at
                                  $5,429,164) for the Inland Fisheries, Marine Fisheries and Wildlife
                                  Divisions, listed 892 items (valued at $705,760) as lost/unfound. To
                                  determine whether personal property items existed, were in usable
                                  condition and properly tagged, we performed on-site visits at four
                                  sites.3 Of the 899 items (valued at $1,878,008) listed on the
                                  inventory as located at those sites, we selected a sample of 194 items
                                  (valued at $541,995) for review. Of the 194 items, we could not find
                                  25 items (valued at $124,849) at the location indicated on the
                                  inventory (17 of these items, valued at $24,676, were acquired with
                                  Federal Assistance funds). In addition to the items sampled, we
                                  found:

                                            •   29 items, valued at $47,463, at locations different than
                                                indicated in the inventory
                                            •   23 items that we could not identify in any of the
                                                inventory records (including the “lost/unfound” list)
                                            •   9 items, valued at $8,263, that inventory records
                                                indicated were “lost/unfound”
                                            •   11 items that did not have property tags

                                  A Departmental Directive, dated April 2, 1998, required that
                                  personal property be placed on the Agency Inventory System, and
                                  numbered for control purposes; an Equipment Inventory Change
                                  Request Form4 be completed to document additions, deletions,
                                  corrections, and between bureau transfers;5 and physical inventories
                                  be taken annually and adjustments made to the inventory records
                                  based on the results of the inventory. The State’s Property Control
                                  Manual required that the SID number and source of funds be
                                  identified in the State’s property records for all State-owned personal
                                  property and that complete inventory records be maintained,
                                  properly tagged, and physical inventories taken on an annual basis.

                                  In addition, Federal Assistance property must be used only for
                                  Federal Assistance activities and must be identified and controlled in
                                  order to properly manage the property in accordance with the
                                  requirements in 50 CFR § 80.18. Property purchased with license
                                  revenues should be used only for the administration of the State’s

3
  Session Woods, Western District HQ, Litchfield HQ, and Marine HQ.
4
  A Record of Equipment on Loan form should be used for property loaned between locations.
5
  The Equipment Inventory Change Request Form may also be used for transfers within the Bureau and to identify
any additions found at a site.




                                                       7
                  fish and game agency as required by 50 CFR 80.4. The State also
                  must maintain current and complete property records in accordance
                  with requirements contained in the Federal Assistance Manual and
                  OMB Circular A–102 (50 CFR 80.19).

                  Support Services officials could not explain the lack of SID numbers
                  in the database. The inventory records were inaccurate because they
                  were not updated to reflect the results of the annual physical
                  inventories and/or due to undocumented transfers or loans. While
                  most employees were aware of the proper forms to be completed for
                  transfers or loans of property, no completed forms were provided for
                  the items in question. As a result, the Bureau did not have effective
                  control over its personal property and may not be able to ensure
                  easily and in a timely manner that assets purchased with Federal
                  Assistance funds were utilized solely for fish and wildlife purposes.
                  The reason the items did not have property tags is unknown, but we
                  believe that either the tags fell off or the item was not tagged upon
                  receipt.

Recommendations   We recommend that FWS require the Bureau to:

                     1. Account for and control Federal Assistance property in a
                  manner to assure that it is used for the purpose for which it was
                  acquired.

                      2. Follow its operational requirements for the management and
                  control of property acquired with Federal Assistance and license fee
                  funds by updating the personal property records, determining the
                  status of items that could not be found during our site visits, and
                  tagging personal property that we found without tags during our site
                  visits.

Bureau            The Bureau concurred that not all assets were identified by funding
Response          source, adding that most of such items were listed with zero
                  acquisition cost and were donations, contributions, or transfers. The
                  inventory will be reviewed to ensure that all assets with a
                  procurement cost will have the appropriate funding source identified.
                  The Bureau also agreed that personal property records were
                  inaccurate but added that there may have been a misunderstanding of
                  the location description and many of the items not at the location
                  indicated in the inventory records may have been at the correct
                  location. The Bureau will instruct field staff to document all
                  property transfers and remind staff of the importance of following
                  the asset management documentation procedures.




                                    8
                                       The Bureau also indicated that serial numbers may be used in lieu of
                                       tags for some items.

       FWS                             FWS did not comment on the finding and recommendations.
       Response

       OIG                             The Bureau’s action is appropriate. We agree that serial numbers
       Comments                        may be used in lieu of tags for some items. FWS should address the
                                       finding and recommendations in the corrective action plan.

                                       The Bureau did not have accurate property control records for real
D. Asset                               property acquired with Federal Assistance funds. As part of our
   Management –                        review of asset management, we requested the Bureau provide an
   Real Property                       inventory listing of real property purchased with Federal Assistance
                                       funds (the State did not use license revenues to acquire real property)
                                       . We were provided with two inventory listings of real property, one
                                       of which was apparently prepared by staff of FWS Region 5. The
                                       two listings were inconsistent as to properties listed and land
                                       acreage. We asked how the funding source could be determined and
                                       were told that the information was only contained in the Bureau’s
                                       Federal Assistance land files; title deeds did not document the
                                       funding source.

                                       We reviewed the land files for two properties and found a third land
                                       acreage for each one. Finally, we reviewed the acreages recorded for
                                       the two properties in the Deed Book, which summarized deed
                                       information, and found a fourth land acreage. The results of our
                                       review are shown below.

                                                                                         Wangunk        Lebanon
                                                                                         Meadows       Hunting Area
                                         Land Inventory prepared by FWS                   494.00         157.60
                                         Land Inventory prepared by the Bureau            466.38         621.40
                                         Bureau's Land Files                              971.00         355.00
                                         Land Deed Book                                   627.13         683.59



                                       The State’s Property Control Manual, dated September 2001,
                                       requires that the reporting form CO-59, listing all property (real and
                                       personal) owned by an Agency be reported to the Office of the State
                                       Comptroller annually. In addition, the State must maintain property
                                       control records for all State-owned land. These records must contain
                                       certain data which includes: date of acquisition, location, acreage,
                                       source of funds, and a State Identification number.6 In addition,

6
    The State Identification number for property acquired with Federal Assistance funds is by grant.




                                                            9
                 according to 50 CFR § 80.19, the Bureau must maintain current and
                 complete property records in accordance with requirements
                 contained in the Service Manual and OMB Circular A–102. The
                 Bureau is also responsible for the accountability and control of all
                 assets acquired with Federal Assistance funds to ensure that they
                 serve the purpose for which acquired throughout their useful life, in
                 accordance with 50 CFR § 80.18.

                 The Bureau indicated that it did not have accurate real property
                 records because it did not have enough staff to maintain the real
                 property records. As a result, the Bureau did not have effective
                 control over its land and may not be able to easily and timely ensure
                 that assets purchased with Federal Assistance funds are utilized
                 solely for fish and wildlife purposes.

Recommendation   We recommend that FWS require the Bureau to update its land
                 inventory records.

Bureau           The Bureau concurred with the finding, stating that it will review the
Response         finding in greater detail and review agency records to verify the
                 appropriate source documents for property verification.

FWS              FWS did not comment on the finding and recommendation.
Response

OIG              The Bureau’s action is appropriate. FWS should address the finding
Comments         and recommendation in the corrective action plan.




                                  10
                                            APPENDIX 1




CONNECTICUT BUREAU OF NATURAL RESOURCES
 FINANCIAL SUMMARY OF REVIEW COVERAGE

         Grant     Grant        Claimed
        Number    Amount         Costs
     F-50-D-21    $552,967      $486,668
     F-50-D-22     577,152       603,508
     F-50-D-23     636,972       651,519
     F-54-R-20     578,700       707,676
     F-54-R-21     575,181       664,629
     F-54-R-22     593,484       657,105
     F-57-R-19    1,365,621     1,335,536
     F-57-R-20    1,303,786     1,382,393
     F-57-R-21    1,400,667     1,469,908
     F-60-D-11            -0-         -0-
     F-60-D-12     254,500       251,690
     F-60-D-13      82,000       128,954
     F-61-T-14     422,469       421,201
     F-61-T-15     357,616       501,831
     F-61-T-16     374,191       492,000
     F-64-E-12     324,588       337,294
     F-64-E-13     370,117       356,696
     F-64-E-14     447,125       407,855
     F-69-D-5      277,448       305,964
     F-69-D-6      339,433       345,296
     F-70-D-4      353,056       303,412
     F-70-D-5      288,878       383,392
     F-100-R-17      6,667        15,313
     F-100-R-18      6,667         6,822
     F-100-R-19      6,667         8,659
     FW-1-C-5      261,148       307,948
     FW-1-C-6      249,343       326,095



                     11
                                        APPENDIX 1



    Grant      Grant        Claimed
   Number     Amount         Costs
FW-1-C-7       268,625       323,486
W-36-R-35         6,500         6,500
W-36-R-36         6,500         6,500
W-36-R-37         6,500         6,500
W-49-R-25      586,076       665,663
W-49-R-26      658,302       752,366
W-49-R-27      524,861       678,450
W-54-T-20      320,733       494,257
W-54-T-21      334,029       516,851
W-54-T-22      197,260       308,947
W-57-S-19      530,847       464,519
W-57-S-20      667,782       644,494
W-57-S-21      657,402       842,161
W-61-D-5       382,326       379,216
W-61-D-6       363,331       369,153
W-61-D-7       390,744       411,542
W-62-R-4          1,635         1,635
W-62-R-5          3,168         3,168
W-62-R-6          4,489         4,489
W-63-O-1       248,305       230,691
Totals      $18,165,858   $19,969,952




                 12
                                        APPENDIX 2



CONNECTICUT BUREAU OF NATURAL RESOURCES
              SITES VISITED

                 Headquarters:
                   Hartford
                 Western District
                    Marine
                   Litchfield

           Wildlife Management Areas:
                  Sessions Woods
                   Babcock Pond
                   Bartlett Brook
                     Franklin
                     Bear Hill

               Boat Launch Sites:
                 Pickeral Lake
             Lower Moodus Reservoir
             Upper Moodus Reservoir
                 Salmon River
               Haddam Meadows
                   Cedar Lake




                       13
                                                                              APPENDIX 3



          CONNECTICUT BUREAU OF NATURAL RESOURCES
                  STATUS OF AUDIT FINDINGS
                   AND RECOMMENDATIONS


 Recommendation                 Status                      Action Required
A.1, A.2, B, C.1, C.2,   Finding unresolved and   Provide a response to the
and D                    Recommendation           recommendation that states concurrence
                         Unimplemented.           or non-concurrence. Provide a
                                                  corrective action plan that includes the
                                                  target date and the official responsible
                                                  for implementation of the
                                                  recommendation or an alternative
                                                  solution. Unresolved findings and
                                                  unimplemented recommendations
                                                  remaining at the end of 90 days (after
                                                  August 6, 2004) will be referred to the
                                                  Assistant Secretary of PMB for
                                                  resolution and/or tracking of
                                                  implementation.




                                          14
                             How to Report
                 Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone - Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit allegations
of any inefficient and wasteful practices, fraud, and abuse related to Departmental or Insular
Area programs and operations. You can report allegations to us by:
              Mail:          U.S. Department of the Interior
                             Office of Inspector General
                             Mail Stop 5341-MIB
                             1849 C Street, NW
                             Washington, DC 20240

              Phone:         24-Hour Toll Free                800-424-5081
                             Washington Metro Area            202-208-5300
                             Hearing Impaired (TTY)           202-208-2420
                             Fax                              202-208-6081

              Internet:      www.oig.doi.gov/hotline_form.html




                            U.S. Department of the Interior
                              Office of Inspector General
                                  1849 C Street, NW
                                Washington, DC 20240
                                        www.doi.gov
                                       www.oig.doi.gov
